App. No. ____

IN THE
SUPREME COURT OF THE UNITED STATES

NATIONAL ASSOCIATION FOR GUN RIGHTS, INC.
Applicant,
v.
JEFF MANGAN, in his official capacity as the Commissioner of Political Practices for
the State of Montana; Timothy G. Fox, in his official capacity as Attorney General
for the State of Montana; Leo J. Gallagher, in his official capacity as County
Attorney for the County of Lewis and Clark
Respondents.

APPLICATION FOR EXTENSION OF TIME
WITHIN WHICH TO FILE A PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

Matthew G. Monforton
MONFORTON LAW OFFICES, PLLC
32 Kelly Court
Bozeman, Montana 59718
Telephone: (406) 570-2949
Facsimile: (406) 551-6919
matthewmonforton@yahoo.com

David Alan Warrington
KUTAK ROCK LLP
1625 Eye Street, NW
Suite 800
Washington, D.C. 20006
Telephone: (202) 828-2437
Facsimile: (202) 828-2488
david.warrington@kutakrock.com

Counsel for Applicant

PETITIONER’S APPLICATION TO EXTEND TIME TO
FILE A PETITION FOR WRIT OF CERTIORARI
To the Honorable Justice Elena Kagan, as Circuit Justice for the United States Court
of Appeals for the Ninth Circuit:
Pursuant to 28 U.S.C. § 2101(c) and Supreme Court Rules 13.5, 22 and 30.3,
petitioner National Association for Gun Rights, Inc. respectfully requests that the
time to file a petition for a writ of certiorari in this case be extended for thirty days
to December 12, 2019. The Ninth Circuit issued its opinion on August 12, 2019,
Appendix (“App.”) A. There was no petition for rehearing or rehearing en banc.
Absent an extension of time, the petition for a writ of certiorari would be due on
November 12, 2019.1 Petitioner is filing this application at least ten days before that
date. See S. Ct. R. 13.5. The Court has jurisdiction under 28 U.S.C. § 1254 to hear
this case.
BACKGROUND
This case involves important and recurring issues concerning the state
regulation of speech protected by the First Amendment.
1.

The National Association for Gun Rights, Inc. (“NAGR”) is a grassroots

organization whose mission is to defend the “right to keep and bear arms” and educate
the public on issues related to the Second Amendment. One way NAGR does so is by
letting the public know, through informational mailings, where government officials
stand on issues related to the Second Amendment. NAGR has mailed and desires to

Ninety days from the date of the Ninth Circuit’s opinion is November 10, 2019 which is a
Sunday, and November 11, 2019 is Veterans Day, a federal holiday, therefore, pursuant to Sup. Ct R.
30.1 and 5 U.S.C.§ 6103, the due date is November 12, 2019.
1

1

mail such educational literature to Montanans. The literature describes officials who
have supported the Second Amendment and those who have not and educates citizens
about those officials’ actual voting records; however, these communications do not
advocate for or against a candidate for office. It is traditional issue advocacy and the
most fundamental type of speech protected by the First Amendment.
2.

In 2015, the Montana Legislature enacted SB-289 (codified at Mont.

Code Ann. § 13-1-101(15)(a)) which created a new category of speech “electioneering
communications” subject to regulation by Montana. This statute swept within its
reach any type of communication made near an election that merely mentions the
name of a candidate for office.
3.

That statutory provision defined “electioneering communication” as:
a paid communication that is publicly distributed by radio,
television, cable, satellite, internet website, newspaper,
periodical, billboard, mail, or any other distribution of printed
materials, that is made within 60 days of the initiation of voting
in an election, that does not support or oppose a candidate or
ballot issue, that can be received by more than 100 recipients in
the district voting on the candidate or ballot issue, and that: (i)
refers to one or more clearly identified candidates in that election;
(ii) depicts the name, image, likeness, or voice of one or more
clearly identified candidates in that election; or (iii) refers to a
political party, ballot issue, or other question submitted to the
voters in that election.

Mont. Code Ann. § 13-1-101(15)(a).
4.

Anyone who makes an electioneering communication is required to

register as a political committee and comply with a variety of regulations including:
registration (Mont. Code Ann. § 13-37-201(b)), appointment of a campaign treasurer
(Mont. Code Ann. §§ 13-37-201 to 204), creation of a campaign depository (Mont. Code
2

Ann. § 13-37-205), record keeping requirements (Mont. Code Ann. §§ 13-37-207 to
208), and various reporting requirements (Mont. Code Ann. §§ 13-37-225 to 231),
including identification of donors (Mont. Code Ann. §§ 13-37-229(1) and 232(1)).
5.

In 2016, NAGR filed suit against several Montana officials and agencies

alleging, inter alia, that Montana’s definition of electioneering communications was
unconstitutional both facially and as applied to NAGR for a 2012 communication. 2
6.

The district court granted summary judgment to Montana, rejecting

NAGR’s argument that Montana’s definition of “electioneering communications” was
constitutionally overbroad. The court held that disclosure requirements were not
limited to speech that is express advocacy or its functional equivalent and Montana’s
interest in increased transparency was a sufficiently important governmental
interest to justify Montana’s regulation of “electioneering communications.”
7.

With the exception of finding unconstitutional Montana’s requirement

(Mont. Code Ann. § 13-37-203), that the treasurer of a political committee be Montana
registered voter, the Ninth Circuit affirmed the district court’s decision. The court
rejected NAGR’s argument that Montana’s “electioneering communication” statute
impermissibly regulates a nearly limitless array of speech simply because candidates’
names are mentioned in a communication made near in time to an election.
According to the Ninth Circuit, “Montana’s scheme is sufficiently tailored to

NAGR also challenged Montana’s “compelled-vote-reporting” provision, Mont. Code Ann. § 1335-225(3)(a) as well as sought declaratory judgment and injunctive relief to prevent the Montana
Commissioner of Political Practices from prosecuting NAGR for the 2012 mailing. The district court
dismissed NAGR’s request for declaratory judgment and injunctive relief as time barred and granted
NAGR summary judgment on its challenge to § 13-35-225(3)(a) holding it unconstitutional. Neither
claim was appealed and therefore is not subject to this petition.
2

3

Montana’s interest in informing its electorate of who competes for the electorate’s
attention and preventing the circumvention of Montana’s laws.” App. A, at 36.
REASONS FOR GRANTING AN EXTENSION OF TIME
The time to file a petition for a writ of certiorari should be extended for thirty
days, to December 12, 2019, for several reasons:
1.

The forthcoming petition will present important questions of federal law

pertaining to the extent that states may regulate First Amendment activities
requiring speakers to register with state authorities and report their activities and
identity of their donors, particularly in cases where the speech at issue does not
contain express advocacy, is not an expensive broadcast advertising targeted to a
large audience, and there is no actual evidence to support the state’s gratuitous
assertion of an interest to justify its regulation of the speech. See Buckley v. Valeo,
424 U.S. 1 (1976); McConnell v. FEC, 540 U.S. 93 (2003); FEC v. Wisconsin Right to

Life, Inc., 551 U.S. 449, 474 (2007); Citizens United v. FEC, 558 U.S. 310, 361 (2010).
2.

Additionally, the forthcoming petition will present the conflict between

the Ninth Circuit’s decision here and the Seventh Circuit’s decision in Wisconsin

Right to Life, Inc. v. Barland, 751 F.3d 804 (7th Cir. 2014), holding a similar
Wisconsin law to be unconstitutional. The Court’s guidance is needed to resolve this
circuit split on this recurring federal question that the Ninth Circuit incorrectly
decided.
3.

No prejudice would arise from the extension.

Whether or not the

extension is granted, the petition will be considered during this Term and the case

4

would be heard either this Term or the next Term should the Court choose to grant
the writ. The judgement below will be in force and effect pending the disposition of
this petition for a writ of certiorari.
4.

The press of other matters before this Court and other federal courts

makes the submission of the petition difficult absent an extension.

Applicant’s

counsel is counsel in several other cases with impending deadlines.
CONCLUSION
For these foregoing reasons, the time to file a petition for a writ of certiorari in
this matter should be extended thirty days to and including December 12, 2019.
Dated: October 30, 2019

Respectfully submitted,
____________________________
David Alan Warrington
KUTAK ROCK LLP
1625 Eye Street, NW
Suite 800
Washington, D.C. 20006
Telephone: (202) 828-2437
Facsimile: (202) 828-2488
david.warrington@kutakrock.com

Counsel for Applicant

5

